ANNUAL CREDIT REVIEWS FOR GULF

COAST HURRICANE DISASTER LOAN 

        DISBURSEMENTS 



            Report Number: 08-10

         Date Issued: March 28, 2008




               Prepared by the 

         Office of Inspector General 

     U.S. Small Business Administration 

            U.S. Small Business Administration
            Office Inspector General                       Memorandum
 To:       Herbert L. Mitchell, Associate Administrator         Date:   March 28, 2008
           Office of Disaster Assistance

 From:     Debra S. Ritt 

           Assistant Inspector General for Auditing 


Subject:   Report on the Annual Credit Reviews for Gulf Coast Hurricane Disaster Loan
           Disbursements
           Report No. 08-10

           This report summarizes the results of our audit of annual credit reviews for Gulf
           Coast Hurricane disaster loan disbursements. We initiated the audit in response to
           the increasing number of defaulted Gulf Coast disaster loans processed by the
           Small Business Administration (SBA). The audit objective was to determine the
           adequacy of SBA’s monitoring efforts to ensure that the financial status of
           borrowers had not deteriorated to levels that would adversely impact their loan
           repayment ability. Specifically, we determined whether (1) the credit reviews
           were conducted before disbursements were made, (2) all required financial
           documents were obtained, and (3) SBA took appropriate measures to cancel loans
           when there were adverse changes in the financial condition of borrowers.

           As of September 30, 2007, we identified 11,217 loans totaling $1.1 billion in
           disbursements for which one or more disbursements occurred over a year after
           loan approval. Based on review requirements that were in effect at the time of
           disbursement (ODA changed the 1-year requirement to 18 months and then to 24
           months), we determined that 1,117 of these loans required a credit review, using
           the applicable timeframe for an updated credit/financial review. We reviewed a
           statistical sample of 159 of these loans. We examined entries in SBA’s Disaster
           Credit Management System (DCMS) for each of the sampled loans to determine
           the timing of the credit reviews, whether all required financial documents were
           obtained, and whether SBA took action to address adverse changes in the financial
           status of borrowers. We also interviewed officials working in SBA’s Office of
           Disaster Assistance (ODA) Processing and Disbursement Center (PDC) in Fort
           Worth, Texas to determine what, if any, controls were in place to prevent the PDC
           from disbursing funds when the required reviews were not performed.
                                                                                 2

We conducted the audit from October 2007 to January 2008 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND
Following the 2005 Gulf Coast hurricanes, ODA approved more than 160,000
disaster loans to help homeowners, renters, businesses and nonprofit organizations
return to pre-disaster condition. As of January 25, 2008, SBA had disbursed
approximately $6.3 billion of the approved loans.

Because rebuilding efforts in the Gulf Coast region have been slow due to the
extensive damage caused by the hurricanes, many disaster loans were not fully
disbursed until long after they were initially approved. During this lengthy
disbursement period, the financial condition of many borrowers changed due to
the loss of businesses and employment in the Gulf Coast region.

To ensure that loan disbursements are not made to borrowers who cannot afford to
repay them, SBA requires a review of borrower creditworthiness prior to
disbursing funds. Standard Operating Procedure (SOP) 50 30 states that a credit
review will be made prior to a disbursement when 12 months have passed since
the date of loan authorization, and annual reviews thereafter until the loan has
been fully disbursed. Further, in reviewing the financial status of borrowers, loan
officers must obtain current credit reports (i.e., Credit Bureau reports and/or Dun
& Bradstreet reports), updated financial statements, and Federal tax returns (IRS
Form 8821) if the previous tax filing period has expired. If an adverse change in
the borrower’s financial condition has occurred, SBA must take appropriate
measures to cancel the undisbursed portion of the loan.

To further safeguard against disbursing funds without reviewing the financial
status of borrowers, disbursement deadlines are recorded in DCMS that serve as a
trigger for determining when credit reviews are needed. When loan disbursement
deadlines expire, loan officials are required to issue a loan modification to extend
the deadlines and to update information on the borrower’s financial status.

RESULTS

SBA Did Not Review the Financial Status of Borrowers Before Disbursing
Additional Loan Funds
SBA’s monitoring efforts were not adequate to ensure that the financial status of
borrowers had not deteriorated to levels that would adversely impact their loan
repayment ability. Generally, ODA did not: (1) perform annual credit reviews, as
required by the Agency’s standard operating procedures, before making
                                                                                                                3

distributions of loan proceeds; (2) obtain updated financial information; and (3)
cancel loans where the borrower had no repayment ability. As a result, SBA
disbursed over $1 billion in loans 1 year or more after loan approval without
assurance that borrowers had repayment ability.

Even when reviews should have been conducted, ODA disbursed $4.9 million on
110 (or about 70 percent) of the 159 sampled loans without verifying the
creditworthiness of loan recipients. Projecting the sample results to the universe,
we estimate1 that SBA disbursed at least $29.2 million in loan proceeds that have a
higher risk of defaulting. We found no evidence showing that reviews were
performed for 86 of the 110 loans. For the other 24 loans, we found evidence of
partial credit reviews. For each of these loans, ODA collected only one of the
three required financial reports needed to determine the financial status of
borrowers. These documents included updated credit reports, current financial
statements, and Federal tax return forms. However, because the reviews were not
complete, ODA did not collect sufficient financial information to fully assess the
financial condition of borrowers.

Although SBA originally established credit reviews as a management control to
prevent ODA from making further disbursements to borrowers who no longer had
repayment ability, in 2006 and 2007 ODA issued policy memoranda that relaxed
the requirements for these reviews. On November 9, 2006, ODA issued Notice
06-61, Credit Review for Hurricanes Katrina, Rita and Wilma, which extended the
time period for credit reviews of Gulf Coast Hurricane loans from 12 to 18 months
from loan authorization. On September 14, 2007, ODA issued Notice 07-53,
Revised Credit Review for Hurricanes Katrina, Rita, and Wilma, which further
extended the review period to 24 months. These extensions effectively eliminated
credit reviews for 10,100 loans totaling over $1 billion2 in total disbursements.
Consequently, ODA circumvented a critical management control, disbursing
additional funds on these loans without first determining whether adverse changes
had occurred in the financial condition of borrowers that would have impacted
their ability to repay the additional loan proceeds that were disbursed.

Further, both extensions were made outside of the normal process for amending
standard operating procedures, which requires clearance by senior Agency
executives external to ODA. Instead of amending SOP 50 30, ODA simply issued
notices to its employees extending the period for credit review. While the
Associate Administrator of ODA can approve exceptions to disaster loan policy

1
    The estimate was based on a 95-percent confidence level.
2
    This amount represents the total gross disbursements, and not the amount of subsequent disbursements that are at
    risk. We did not determine the total value of subsequent disbursements made on the 10,100 loans. However, based
    on prior audits, we believe that a significant portion of the $1 billion was disbursed a year or more after loan
    authorization and; therefore, was subject to the original credit review requirement.
                                                                                4

established by SOP 50 30, ODA was unable to provide a written justification or
analysis of why the policy changes were so urgently needed that they could not be
executed through a revised SOP. Because extensions of the credit review period
represented a significant deviation from policy established by the SOP and
ultimately placed a significant amount of loan funds at risk, we believe they
should have been approved by the highest levels of SBA.

ODA officials explained that the credit review extensions were justified since
economic conditions in the hurricane-hit areas had negatively impacted borrower
repayment ability in many cases, through no fault of the borrowers. Therefore,
they intended to disburse the full amount of the approved loans regardless of
whether borrowers could repay their loans. We believe that by disregarding
borrower repayment ability, ODA was negligent in carrying out its fiduciary
responsibilities. By law, SBA is authorized to make disaster loans, not grants.
Further, SBA’s regulations for the disaster loan program require that there be
reasonable assurance that borrowers can repay their loans. Therefore, by
disregarding borrower repayment ability, ODA has established procedures that are
contrary to its regulations and contrary to prudent lending procedures and which
could result in significantly higher loan defaults and losses.

Additionally, the 2007 ODA policy notice eliminated the requirement to review
borrowers’ updated financial statements and Federal tax return forms when
evaluating the financial status of borrowers. Under the September 2007 notice,
credit reviews are to be based solely on borrower credit reports. We believe that
relying solely on credit reports is imprudent because these reports only provide
information on borrower monthly debt payments, and contain no income data
needed to establish whether the borrower has sufficient income to repay the loan.

Lastly, although DCMS contained disbursement deadlines that should have served
as a trigger for determining when credit reviews were needed, loan officers and
their supervisors ignored this information, disbursing funds without reviewing the
financial status of borrowers. When loan disbursement deadlines expire, loan
officials are required to issue a loan modification to extend the deadlines.
However, disbursements were made on 74 of the 159 loans after the disbursement
deadlines. To prevent this override from occurring in the future, SBA should
build a control into DCMS in future upgrades of the system that prevents
disbursements from being made after established deadlines without loan
modifications.

In conclusion, ODA’s revision of its credit review policies and the lack of controls
in DCMS have resulted in the disbursement of loan funds that have a higher risk
that the loan cannot be repaid. In our opinion, ODA’s processing of subsequent
loan disbursements was not only imprudent, but will likely lead to a greater
                                                                                                            5

number of loan defaults, and future adverse changes in borrower credit records
and property losses, should foreclosures occur.

SBA Identified No Adverse Changes in the Financial Status of Borrowers
Of the 49 loans in our sample meeting the credit review requirement, SBA did not
identify adverse changes in the financial status of borrowers; therefore, the
Agency did not cancel any of these loans. However, we determined that six loans
involved additional disbursements to borrowers who lacked repayment ability and
one involved a borrower who was over 60-days delinquent on child support
payments. SOP 50 30 prohibits disbursements to borrowers who are more than
60-days delinquent on child support payments.

Six of the seven loans we identified had been approved under expedited
procedures that did not require an analysis of the applicant’s repayment ability.
As discussed in a previous audit,3 under the Expedited Loan Program, SBA
awarded an estimated $1.5 billion to individuals who lacked repayment ability.
This occurred because borrower repayment ability was not considered during the
approval process.

Although SBA did not previously identify these deficiencies at the time of
disbursement, ODA officials agreed with our conclusion regarding repayment
ability when presented with our findings. However, officials noted that it would
be inappropriate to withhold remaining loan payments for borrowers on the six
loans who were not required to undergo a repayment analysis when their loans
were initially approved. We disagree with this view as extending loan funds to
borrowers who cannot afford to repay them will cause their loans to ultimately
default, impair the future credit standing of borrowers and potentially result in
foreclosures on their properties. Therefore, such action would ultimately harm
borrowers.

RECOMMENDATIONS

We recommend that the Associate Administrator for Disaster Assistance:

       1. Reinstitute the requirement that updated income tax returns and financial
          documents be collected along with updated credit reports during annual
          credit reviews.

       2. Rescind Notice 07-53 to ensure that credit reviews are performed for loans
          that are disbursed 12 months beyond the original loan authorization date.

3	
     Quality of Loans Processed Under the Expedited Disaster Loan Program, OIG Report Number 07-34, September 28,
     2007.
                                                                                  6


   3. Require written justification for disaster assistance policy that is made
      outside of the Agency’s SOP clearance process.

   4. Implement internal system controls into DCMS that ensure disbursements
      do not occur after expired deadlines. As part of these controls, required
      credit reviews must be performed to justify extensions.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On February 28, 2008, we provided SBA with a draft of the report for comment.
On March 21, 2008, SBA submitted its formal response, which is contained in its
entirety in the Appendix. ODA generally concurred with the audit findings, but
did not concur with three of the four recommendations, and commented on several
issues raised in the report. ODA provided a partial response to the fourth
recommendation. The Agency agreed that not all credit reviews were completed
as required, but did not agree with our opinion of the credit review policies. The
following response summarizes management’s comments and our response.

General Comments

ODA believes that the report fails to recognize the devastating effects of the Gulf
Coast hurricanes on the financial condition of borrowers, and does not
acknowledge the need to adjust SBA’s lending policies accordingly. Specifically,
ODA argues that because the hurricanes negatively impacted borrowers’ credit,
the Agency must give the borrowers additional opportunities to explain poor credit
history and derogatory credit bureau reports. Additionally, ODA noted that
disaster-related derogatory credit issues may be beyond the borrowers’ control and
that continuing to enforce the standard credit review policies would have created
additional hardships for borrowers.

OIG Response

We acknowledge the Gulf Coast hurricanes created hardships for SBA loan
applicants. However, we do not believe that ODA was justified, or, more
importantly, had the authority to circumvent regulatory requirements that loan
disbursements be made only to individuals who have repayment ability. While the
Agency SOP may authorize the Associate Administrator to change policies and
procedures governing the disaster loan program, it does not allow him to create
policies that violate Agency regulations. Regulations always govern over SOPs.
Further, ODA does not have the authority to impose its will over that of the
Congress. Congress intended that the disaster funds be distributed as loans that
                                                                                  7

would be repaid, and not as grants. Therefore, by relaxing annual credit review
requirements designed to establish repayment ability, ODA not only violated
Agency regulations, but undermined Congress’ intent in establishing the disaster
assistance program.

ODA’s comments do not acknowledge that disbursing money, which borrowers
cannot repay, only serves to weaken the financial condition of borrowers and
create greater hardships for them. If the disaster loans default, resulting in
foreclosures, borrowers will not only lose their homes but their credit history will
also be negatively impacted. It takes 7 years on average after foreclosure for an
individual to fully repair his/her credit standing.

Additionally, by relaxing its annual credit review policy, ODA may have
disbursed additional funds to individuals that should never have been approved for
their loans. Our September 27, 2008, report on The Quality of Loans Processed
Under the Expedited Disaster Loan Program, estimated that $1.5 billion in loans
processed under expedited procedures were awarded to applicants who lacked
repayment ability. Many of these individuals received subsequent disbursements
on their loans because ODA waived the annual credit reviews.

Recommendation 1

Management Comments

Management did not indicate whether it agreed that credit review requirements
should be reinstated for Gulf Coast loans. ODA stated that current guidance
(Memo 07-53) for Gulf Coast hurricane loans will stay in effect until September
30, 2008, but that updated tax returns, financial data, and credit reports are
currently required for all other disaster assistance loans. Memo 07-53 does not
subject Gulf Coast hurricane victims to the standard credit review requirements.
Additionally, ODA will implement procedures to ensure the memo is followed,
including: issuing specific credit review instruction to loan officers and case
managers; establishing points of contacts for case managers to obtain guidance on
when a complete credit review is required on Gulf Coast loans; and training loan
officers on the credit review requirements for Gulf Coast loans. Loan officers will
also now be required to follow up with borrowers when credit reports indicate
adverse financial changes.

OIG Response

We consider ODA’s comments to be unresponsive as it did not indicate whether it
agreed to implement the recommendation. ODA stated that it intends to maintain
the current policy for Gulf Coast loans until September 30, 2008, when all
remaining Gulf Coast loan proceeds must be disbursed. Further, although
                                                                                   8

management stated it would implement specific credit review procedures, it is
unclear whether the procedures will require annual credit reviews. Accordingly,
we are requesting that ODA clarify its intentions with respect to the
recommendation. We will also seek a management decision on the
recommendation through the audit resolution process.

Recommendation 2

Management Comments

In lieu of rescinding Memo 07-53 as recommended, ODA indicated it would
implement additional instructions to ensure the guidance in the memo is followed.
It will also follow up with borrowers when credit reports indicate adverse financial
changes.

OIG Response

Because ODA did not agree to rescind Memo 07-53, and it is unclear whether the
alternative actions ODA proposed include an analysis of borrower repayment
ability prior to disbursing funds, we consider management’s comments to be
unresponsive to the recommendation. Accordingly, we are requesting that ODA
clarify its intentions with respect to the recommendation, and we will pursue a
management decision on the recommendation through the audit resolution process.

Recommendation 3

Management Comments

ODA stated that all changes to disaster policy are analyzed extensively prior to
implementation, and that the memos relaxing credit review requirements were
carefully considered before being implemented.

OIG Response

Because ODA did not indicate whether it agreed to ensure that future policy
established outside of the Agency’s SOP process is justified in writing, we do not
consider its comments to responsive to the recommendation. Instead, ODA
commented that that its decision to relax annual credit review requirements
resulted from a detailed analysis. However, it could not produce evidence of its
analysis or justification for deviating from stated policy. We also maintain that
regardless of whether an analysis was performed, ODA lacked authority to
establish policy that deviated from Agency regulations. As stated previously,
SBA’s regulations, which take precedence over its procedures, require that there
be reasonable assurance that borrowers can repay their loans.
                                                                                 9

Accordingly, we are requesting that ODA clarify its intentions with respect to the
recommendation, and will pursue a management decision through the audit
resolution process.

Recommendation 4

Management Comments

The Agency agreed with our recommendation to install edits in DCMS that will
alert case managers at the time disbursements are ordered if the disbursement
period has expired. However, we also recommended that the Agency implement
internal control systems into DCMS to ensure that disbursements do not occur
after expired deadlines and that credit reviews are performed to justify extensions.

OIG Response

We do not consider the action proposed by ODA to be fully responsive to the
recommendation. While an alert system will reduce the likelihood of
disbursements occurring outside the disbursement period, we believe that an actual
business rule, that would prevent the disbursement, would be more effective and
satisfy the requirement to establish needed internal controls. Simply alerting case
managers when a disbursement is ordered outside the disbursement period does
not guarantee that the disbursement will be stopped. Further, the recommended
internal control was intended to ensure that loan officers perform credit reviews,
when required, prior to extending disbursement periods, and ultimately approving
disbursements. ODA’s proposal included no specific action that requires the
completion of credit reviews when extending the disbursement period.

Accordingly, we will seek further action through the audit resolution process.
Also, ODA did not provide a target date for implementing internal controls in
DCMS, we are requesting a target date for this action be provided by April 25,
2008.

ACTIONS REQUIRED

Because your comments do not clearly indicate concurrence/nonconcurrence with
recommendations 1 through 3, we request that you provide a written response by
April 25, 2008 clarifying your management decision. Your comments should
indicate whether you concur/nonconcur with each of the recommendations. If you
concur, please state the specific action taken or planned and the target date for
completion. If you do not concur, please provide your rationale. You may also
provide alternative courses of action that you believe would resolve the issues
presented in this report.
                                                                                10

We appreciate the courtesies and cooperation of the Office of Disaster Assistance
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 205-7203 or Pamela Steele-Nelson, Director, Disaster
Programs Group, at (202) 205-[Exemption 2].
                                   U.S. SMALL BUSINESS ADMINISTRATION 

                                               WASHINGTON, D.C . 20416 





Date: 	       March 21 , 2008

To: 	         Debra S. Ritt
              Assistant Inspector General for Auditing

From: 	       Herbert L. Mitchell
              Associate Administrator
              For Disaster Assistance

Subject: 	    OIG Draft Report - Annual Credit Reviews For Gulf Coast Hurricane Disaster Loan
              Disbursements (Project No. 8304)

We have reviewed the draft audit report on Annual Credit Reviews for Gulf Coast Hurricane Disaster
Loan Disbursements prepared by your office. While we disagree with your opinion of the revised KR W
credit review procedures, we agree not all credit reviews were completed as required.

The report summarized the results of the audit of disaster loan disbursements to borrower' s of the Gulf
Coast Hurricanes. The basis of the audit was to determine if the SBA followed credit review procedures
for KRW files as defined in SOP paragraph 96 d and ODA numbered memo ' s 06-61 and 07-53.

The audit included an analysis on 159 loans of 1, 117 requiring reviews as of September 30, 2007. The
report concluded that 70% of the loans were disbursed without performing the necessary credit review.
The report also criticized SBA for revising the normal credit review procedures as defined in SOP
paragraph 96 d. for KRW borrowers in numbered memo's 06-61 and 07-53. The report ignores the fact
that the Gulf Coast region and the majority of Hurricane Katrina, Rita and Wilma victims suffered
catastrophic physical and economic injury as a result of the Hurricanes. The economic and physical
disaster recovery period for the Gulf Coast region, including businesses and individual home owners was
significantly longer than experienced in other disaster declarations. As a result of these extraordinary
hardships associated with the extended recovery period, SBA ' s made a decision to modify the credit
review procedures as defined in SOP paragraph 96 d. for KRW borrowers. The decision to temporarily
revise the credit review procedures was appropriate and is supported in the current SBA guidance in SOP
paragraph 76 and SBA training manual #4. The physical and economic hardships that KRW borrowers
were faced with were disaster related and the circumstances were beyond the borrower' s control.

SOP Paragraph 76

          Poor Credit History: You must give applicants with poor credit history every opportunity to
                 provide explanations before you reach a conclusion about their overall credit worthiness.
                 Generally, a history that consists of minor, isolated instances of poor credit or late
                 payments is acceptable provided that:
Training Module #4

         Derogatory Credit Issues
               In some instances, derogatory credit may be beyond control of the
               applicant.

                For example:
                         Unemployment
                         Protracted labor strikes
                         Prolonged illness
                         Uninsured medical costs
                         Divorce, etc
                        Disaster related

Continuing to enforce the standard credit review policies would have created an additional hardship on
SBA's KRW borrowers.

Comments on the Recommendations:

Recommendations # l: Reinstitute the requirement that updated income tax returns and financial
documents be collected along with updated credit reports during annual credit reviews.

ODA Response: For KRW files SEA numbered memo 07-53 is in affect until September 30, 2008. To
ensure we adhere to the credit review policy as outlined in the memo we have initiated the following
procedures:

        • 	 Issued specific credit review instructions to the loan officers and case managers on the policy
            and level ofreview requiredfor KRWfiles.

        • 	 Established loan processing points of contacts for case managers to obtain guidance and
            determine if a complete credit review is required on any KRW file prior to disbursement

        • 	 Completed loan officer training classes the week of 21II08 and covered the credit review
            policy and requirements for KRW loans.

For all Non-KRW files SEA policy as defined in SOP paragraph 96 dis in effect which requires updated
tax returns, financial data and credit reports when a credit review is required. Additionally we have
completed the following:

        • 	 Revised the SEA disbursement period from 12 months to 6 months from the date of the SEA
            loan authorization and agreement for all new disaster declarations.

        • 	 Issued specific credit review instructions to case managers on the policy and level of review
            requiredfor Non-KRWfiles.

        • 	 Established loan processing points of contacts for case managers to obtain guidance and
            determine if a complete credit review is required prior to disbursement



                                                    2

            • 	 Completed loan officer training classes the week of2/l/08 and covered the credit review
                policy and requirements forNon-KRW loans.


Recommendation #2: Rescind Notice 07-53 to ensure that credit reviews are performed for loans that are
disbursed 12 months beyond the original loan authorization date.

ODA Response: The revised credit policy covering the KRW loans is reasonable given the circumstances
and we have taken additional steps to ensure that the policy is followed. If the credit report indicates an
adverse change the loan officer or case manager is required to follow up, which may include obtaining
updatedfinancials and tax returns on an individual basis.

Recommendation #3: Require written justification for disaster assistance policy that is made outside the
Agency's SOP clearance process.

ODA Response: Because of the nature of disasters the Agency SOP authorizes the Associate
Administrator to make changes to the policies and procedures governing the disaster loan program. All
changes to the Agency SOP governing the disaster loan program are thoroughly reviewed and justified
prior to implementation. In this specific instance which is the subject of this audit a great deal of
consideration was given to the magnitude of the disaster, the amount of devastation, its impact on the
economy and the extended recovery period well beyond any other disaster in the history ofthe country.

Recommendation #4: Implement internal system controls in DCMS that ensure disbursements do not
occur after expired deadlines. As part of the controls, required credit reviews must be performed to justifY
extensions."

ODA Response: We agree with the IG recommendation to have an edit installed in DCMS that will alert
the case manager at the time they try to order a disbursement if the disbursement period is expired. We
are currently working on automating this process.

Thank you for the opportunity to comment on this draft report and if you have any questions on this
response please feel free to contact me or James Rivera.



     [Exemption 6]


Herbert L. Mitchell
Associate Administrator
for Disaster Assistance




                                                   3

